Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the City of Worcester, Massachusetts Police Department
GR-70-00-018September 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Worcester, Massachusetts Police Department (Worcester).  The purpose of the grants is to enhance community policing.  The COPS Office awarded Worcester a total of $4,850,859 to hire 55 new police officers and redeploy the equivalent of 15.9 existing full-time officers from administrative duties to community policing.
	
	We reviewed Worcester's compliance with eight essential grant conditions.  We found Worcester to be in general compliance with grant conditions for reimbursement/advance payment requests, providing local matching funds, and grant reporting.  However, our audit revealed the following:

Worcester budgeted for a decrease of 27 locally funded officer positions in FY 1996.  In March 1997, the COPS Office determined that Worcester "violated the nonsupplanting requirement by using the second COPS Universal Hiring Program grant to pay for 18 new officers who would have been hired by the City with local funds in the absence of the grant."

	Worcester may not retain all of the positions funded as a result of the UHP grant.

	We could not verify whether redeployment of officers had occurred as a result of the MORE grants; therefore, we are questioning $725,859 as unsupported.

	Although Worcester police officers were performing community policing activities, we could not determine if Worcester enhanced its community policing activities by the number of officers funded by COPS grants because we could not verify whether redeployment occurred as a result of the MORE grants.

We discuss these items in detail in the Findings and Recommendation section of the report. 1   Our audit objectives, scope and methodology appear in Appendix I. 





The Inspector General Act of 1998 contains our reporting requirements for questioned costs; however, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and definition of questioned costs.